Appendix A
Memorandum decision, Filed April 20, 2021

Case: 19-15396, 04/20/2021, ID: 12080164, DktEntry: 33-1, Page 1 of 5

FILED
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

APR 20 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
ALBERTO RODRIGUEZ,

No.

Petitioner-Appellant,

19-15396

D.C. No.
1:17-cv-01040-DAD-SAB

v.
MEMORANDUM*

SCOTT KERNAN,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Submitted April 16, 2021**
San Francisco, California
Before: R. NELSON and HUNSAKER, Circuit Judges, and JACK,*** District
Judge.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
***

The Honorable Janis Graham Jack, United States District Judge for
the Southern District of Texas, sitting by designation.

Case: 19-15396, 04/20/2021, ID: 12080164, DktEntry: 33-1, Page 2 of 5

Alberto Rodriguez appeals the district court’s denial of his habeas corpus
petition. This court granted a Certificate of Appealability on a single issue:
whether Rodriguez’s conviction for false imprisonment violates due process
because this offense was not charged and is not a lesser-included offense of the
attempted kidnapping charge. As the underlying state court decision holding that
Rodriguez waived his right to notice of a lesser-related offense was not contrary to
clearly established Supreme Court precedent, we affirm.
Under the Antiterrorism and Effective Death Penalty Act, we may only grant
relief if the state court’s decision “was contrary to, or involved an unreasonable
application of, clearly established” Supreme Court precedent, or “was based on an
unreasonable determination of the facts in light of the evidence presented in the
State court proceeding.” 28 U.S.C. § 2254(d)(1)–(2). To be clearly established
Supreme Court precedent, a case must “squarely address the issue in the case or
establish a legal principle that clearly extends to a new context to the extent
required by the Supreme Court.” Moses v. Payne, 555 F.3d 742, 754 (9th Cir.
2009) (alterations adopted) (internal quotation marks and citation omitted). A state
court’s decision must be “objectively unreasonable,” not just erroneous, Wiggins v.
Smith, 539 U.S. 510, 521 (2003), such that “there is no possibility fairminded
jurists could disagree that the state court’s decision conflicts with [Supreme Court]

2

Case: 19-15396, 04/20/2021, ID: 12080164, DktEntry: 33-1, Page 3 of 5

precedent[],” Harrington v. Richter, 562 U.S. 86, 102 (2011). Otherwise, “we
must defer to the state court’s decision.” Moses, 555 F.3d at 754. “If this standard
is difficult to meet, that is because it was meant to be.” Richter, 562 U.S. at 102.
Here, Rodriguez contends that he was denied due process when the jury was
instructed that false imprisonment, see Cal. Penal Code § 236, is a lesser-included
offense of attempted kidnapping, id. §§ 207(a), 209(b)(1), 236, 664, 665. Both
parties agree that false imprisonment is not a lesser-included offense of attempted
kidnapping but merely a lesser-related offense. However, Rodriguez’s counsel did
not object to the false imprisonment jury instruction or verdict charge and
affirmatively responded that the jury instructions were acceptable. The state court
of appeal viewed his counsel’s failure to object as waiving the right to receive
notice of the false imprisonment charge.
“[N]otice of the specific charge, and a chance to be heard in a trial of the
issues raised by that charge, if desired, are among the constitutional rights of every
accused in a criminal proceeding . . . .” Cole v. Arkansas, 333 U.S. 196, 201
(1948). But even “[t]he most basic rights of criminal defendants are . . . subject to
waiver.” Peretz v. United States, 501 U.S. 923, 936 (1991). Whether a particular
right may be waived by counsel or only by the informed defendant depends on the
right at issue. New York v. Hill, 528 U.S. 110, 114–15 (2000).

3

Case: 19-15396, 04/20/2021, ID: 12080164, DktEntry: 33-1, Page 4 of 5

Rodriguez fails to identify any Supreme Court case clearly establishing that
notice of a lesser-related offense cannot be waived or what is required to waive
such notice. None of the cases he cites “squarely address” or “clearly extend” to
the waiver of the right to notice of a lesser-related offense. See Moses, 555 F.3d at
754 (citation omitted); see also Cole, 333 U.S. at 201 (establishing that the right to
notice of a charge is an important right); Boykin v. Alabama, 395 U.S. 238, 242–43
(1969) (holding that a silent record is insufficient for a waiver of certain specified
rights not at issue here); Johnson v. Zerbst, 304 U.S. 458, 464 (1938) (explaining
“[c]ourts indulge every reasonable presumption against waiver of fundamental
constitutional rights” in the context of foregoing assistance of counsel (internal
quotation marks omitted)). The Supreme Court has not expressly limited the
ability to waive notice of a lesser-related offense to informed defendants. And it
has allowed counsel to waive other significant rights including the right to a speedy
trial and “many decisions pertaining to the conduct of the trial.” See Hill, 528 U.S.
at 115.
The state court of appeals’ decision that Rodriguez waived his right to notice
of the false imprisonment charge when his counsel failed to object to the jury
instructions was not “so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for

4

Case: 19-15396, 04/20/2021, ID: 12080164, DktEntry: 33-1, Page 5 of 5

fairminded disagreement.” See Richter, 562 U.S. at 103.1 We defer to the state
court’s decision. Moses, 555 F.3d at 754.
AFFIRMED.

1

As the waiver issue is dispositive, we do not decide whether there is clearly
established Supreme Court precedent precluding jury instructions from providing
adequate notice of a lesser-related offense.

5

Appendix B
Order denying rehearing, Filed June 21, 2021

Case: 19-15396, 06/21/2021, ID: 12148855, DktEntry: 37, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 21 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ALBERTO RODRIGUEZ,
Petitioner-Appellant,
v.

No.

19-15396

D.C. No.
1:17-cv-01040-DAD-SAB
Eastern District of California,
Fresno

SCOTT KERNAN,
ORDER
Respondent-Appellee.
Before: R. NELSON and FORREST, Circuit Judges, and JACK,* District Judge.
The panel has voted to deny the petition for rehearing en banc. Judges R.
Nelson and Forrest voted to deny the petition for rehearing en banc and Judge Jack
so recommended.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App. P.
35.
The petition for rehearing en banc is DENIED.

*

The Honorable Janis Graham Jack, United States District Judge for
the Southern District of Texas, sitting by designation.

Appendix C
Findings and recommendation recommending denial of
petition for writ of habeas corpus; Order adopting
findings; Judgment

Case 1:17-cv-01040-DAD-SAB Document 21 Filed 02/25/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
ALBERTO RODRIGUEZ,
CASE NO: 1:17−CV−01040−DAD−SAB

v.
SCOTT KERNAN,

XX −− Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 02/25/2019

Marianne Matherly
Clerk of Court

ENTERED: February 25, 2019

by: /s/ E. Flores
Deputy Clerk

Case 1:17-cv-01040-DAD-SAB Document 20 Filed 02/25/19 Page 1 of 2
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

ALBERTO RODRIGUEZ,

12

Petitioner,

13
14

No. 1:17-cv-01040-DAD-SAB (HC)

v.
SCOTT KERNAN,

15

Respondent.

ORDER ADOPTING FINDINGS AND
RECOMMENDATIONS, DENYING
PETITION FOR WRIT OF HABEAS
CORPUS, AND DECLINING TO ISSUE
CERTIFICATE OF APPEALABILITY
(Doc. No. 16)

16
17

Petitioner is a state prisoner proceeding pro se with a petition for writ of habeas corpus

18
19

pursuant to 28 U.S.C. § 2254. (Doc. No. 1.) The matter was referred to a United States

20

Magistrate Judge pursuant to 28 U.S.C. § 636(b)(1)(B) and Local Rule 302.
On June 20, 2018, the assigned magistrate judge issued findings and recommendation

21
22

recommending that the petition be denied on the merits, rejecting each of petitioner’s substantive

23

grounds for federal habeas relief. (Doc. No. 16.) The findings and recommendations were served

24

on petitioner and contained notice that any objections thereto were to be filed within thirty (30)

25

days after service. (Id. at 21–22.) After being granted an extension of time in which to file

26

objections, petitioner timely filed objections to the findings and recommendations on August 9,

27

2018. (Doc. No. 19.)

28

/////
1

Case 1:17-cv-01040-DAD-SAB Document 20 Filed 02/25/19 Page 2 of 2
1

In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C), the court has conducted a

2

de novo review of the case. Having carefully reviewed the entire file, including petitioner’s

3

objections, the court finds the findings and recommendations to be supported by the record and

4

proper analysis. Petitioner’s objections provide no basis to question the magistrate judge’s

5

analysis; on the contrary, petitioner merely repeats the same arguments that were previously fully

6

considered and appropriately rejected by magistrate judge.

7

Finally, a state prisoner seeking a writ of habeas corpus has no absolute entitlement to

8

appeal a district court’s denial of his petition, and an appeal is only allowed in certain

9

circumstances. Miller-El v. Cockrell, 537 U.S. 322, 335–36 (2003). Specifically, the federal

10

rules governing habeas cases brought by state prisoners require a district court issuing an order

11

denying a habeas petition to either grant or deny therein a certificate of appealability. See Rules

12

Governing § 2254 Case, Rule 11(a). A judge shall grant a certificate of appealability “only if the

13

applicant has made a substantial showing of the denial of a constitutional right,” 28 U.S.C.

14

§ 2253(c)(2), and the certificate must indicate which issues satisfy this standard. 28 U.S.C.

15

§ 2253(c)(3). “Where a district court has rejected the constitutional claims on the merits, the

16

showing required to satisfy § 2253(c) is straightforward: [t]he petitioner must demonstrate that

17

reasonable jurists would find the district court’s assessment of the constitutional claims debatable

18

or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). Here, petitioner has not made such a

19

showing. Accordingly, a certificate of appealability will not be issued.

20

For the reasons set forth above:

21

1. The findings and recommendations issued on June 20, 2018 (Doc. No. 16) are

22

adopted;

23

2. The petition for writ of habeas corpus is denied;

24

3. The Clerk of the Court is directed to close the case; and

25

4. The court declines to issue a certificate of appealability.

26
27
28

IT IS SO ORDERED.
Dated:

February 22, 2019
UNITED STATES DISTRICT JUDGE
2

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 1 of 22

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

EASTERN DISTRICT OF CALIFORNIA

10
ALBERTO RODRIGUEZ,

11

Case No. 1:17-cv-01040-DAD-SAB-HC

Petitioner,

12

FINDINGS AND RECOMMENDATION
RECOMMENDING DENIAL OF PETITION
FOR WRIT OF HABEAS CORPUS

v.

13

SCOTT KERNAN,

14

Respondent.

15
16

Petitioner is a state prisoner proceeding pro se with a petition for writ of habeas corpus

17

18 pursuant to 28 U.S.C. § 2254.
19

I.

20

BACKGROUND
On October 10, 2014, Petitioner was convicted after a jury trial in the Kings County

21

22 Superior Court of: false imprisonment, simple assault, assault by means of force likely to cause
23 great bodily injury, assault with intent to commit a sexual offense, sexual penetration with a
1
24 finger by force, and robbery. (CT 134–45). The trial court sentenced Petitioner to a total

25 imprisonment term of fifteen years and eight months. (CT 273). On November 2, 2016, the
26 California Court of Appeal, Fifth Appellate District affirmed the judgment. People v. Rodriguez,
27 No. F070850, 2016 WL 6472106, at *1 (Cal. Ct. App. Nov. 2, 2016). The California Supreme
28

1

“CT” refers to the Clerk’s Transcript on Appeal lodged by Respondent on October 19, 2017. (ECF No. 11).

1

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 2 of 22
1 Court denied Petitioner’s petition for review on February 15, 2017. (LDs2 5, 6).
On August 4, 2017, Petitioner filed the instant federal petition for writ of habeas corpus.

2

3 (ECF No. 1). In the petition, Petitioner raises the following claims for relief: (1) lack of notice
4 regarding the false imprisonment offense; (2) the trial court’s failure to sua sponte instruct the
5 jury regarding proper use of circumstantial evidence in accordance with CALCRIM No. 224; (3)
6 ineffective assistance of counsel; and (4) sentencing error. (ECF No. 1 at 4–5).3 Respondent filed
7 an answer, and Petitioner filed a traverse. (ECF Nos. 10, 15).
8

II.

9

STATEMENT OF FACTS4

10

At trial, K.D. testified that she was returning to her apartment in downtown
Hanford around 7:00 p.m. on August 11, 2013, after walking around the corner to
a store for soda and cigarettes. The way to the rear entrance of the building passed
through an alley at the side. As K.D. entered the alley, some men standing by a
car and a pickup truck catcalled at her. Rodriguez walked up to K.D., put his arm
around her, and pulled her toward him. K.D. pulled away from him and walked
faster, but Rodriguez matched her pace and pulled her toward him again as the car
followed them with the passenger door open. K.D. tried to reach an area near the
rear entrance to the building where there were lights and people inside might hear
her screaming for help, but Rodriguez pulled her toward the car and said
something about coming to a house. When K.D. said “no,” Rodriguez punched
her head and face repeatedly with his fists. K.D. tried to guard her head by
crouching against a cement wall, but Rodriguez continued hitting her, causing her
face to strike the wall.

11
12
13
14
15
16
17

K.D. testified that Rodriguez then squeezed her neck with his hands until her
vision blacked out. She regained consciousness but could not stand and collapsed
on the pavement. As Rodriguez tried to get on top of her, K.D. crawled up against
the wall and curled herself into a fetal position to try to stop him from raping her.
He pulled her pants down to her knees and pulled her underpants part of the way
down. K.D. felt his finger and another object—something smooth and cool—in
her crotch. The finger and the object penetrated inside the flesh at the opening of
the vagina.5

18
19
20
21
22
23
24
25
26
27
28

“LD” refers to the documents lodged by Respondent on October 19, 2017. (ECF No. 11).
Page numbers refer to ECF page numbers stamped at the top of the page.
4
The Court relies on the California Court of Appeal’s November 2, 2016 opinion for this summary of the facts of
the crime. See Vasquez v. Kirkland, 572 F.3d 1029, 1031 n.1 (9th Cir. 2009).
5
K.D.’s testimony on direct examination about exactly how Rodriguez penetrated her was as follows:
“Q. Okay, when you felt this object where did it go?
“A. Where did it go?
“Q. Yes.
“A. Right in my vagina. [¶] ... [¶]
“Q. ... So I don’t mean to get graphic with you, but do you use tampons?
“A. Yes.
“Q. This item that you described, would it be—did you feel it in the same place that you would put a
tampon?
2
3

2

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 3 of 22

1
2
3
4
5
6

Rodriguez withdrew his hand from K.D.’s crotch. She testified, “He stopped. He
stood over me, he looked just like in shock, like how is she still fighting, that was
kind of like the look he had on his face.” Then he grabbed her purse. She tried to
hold on to it, but then let go after a few seconds, hoping he would leave. K.D. saw
Rodriguez walk away toward the car, carrying the purse. She had a cut above her
eye, multiple bumps on her head, a swollen face, an abrasion under her arm where
her purse strap had been, bruises on her arms, and a burning sensation in her
vaginal area. The purse contained a cell phone, a prescription medication, a
lipstick, and a wallet with $22 in cash.
K.D. identified Rodriguez, as he sat in the courtroom, as the perpetrator of the
attack.

7
8

Some neighbors who had heard K.D. scream came out to the alley and found her
lying injured on the ground. One testified that K.D. said her attacker “did stick his
fingers in her.”

9
10
11

Dr. Mark Hoffman examined K.D. at a hospital around 9:00 the same night. He
testified that K.D. told him a man attacked her, threw her to the ground, strangled
her, pulled her pants down, and placed his fingers and another object inside her
vagina. He examined her and found injuries on her head, neck, arm, knee and
back, all consistent with her description of the attack.

12
13
14
15
16
17

Patricia Driscoll, a registered nurse, testified that she performed a sexual assault
examination on K.D. that night at 1:15 a.m. In addition to the injuries on other
parts of K.D.’s body, Driscoll found redness on K.D.’s outer labia and posterior
fourchette.6 During the examination, K.D. reported pain inside and outside her
vagina. When Driscoll put a speculum in place for the examination, K.D. cried
out that it hurt. This was not a normal reaction for an uninjured patient. Driscoll
opined that her findings were consistent with penetration by a finger or other
object. On cross-examination, she stated the injuries to K.D.’s vagina could have
been caused by an object used during consensual sex. She also said “[a]nything is
possible” when asked whether the speculum could have been a cause of K.D.’s

18
19
20
21
22
23
24
25
26
27
28

“A. Yes.
“Q. So it went inside of you?
“A. No, it was just right there at the edge, you know, where like your perineum is, right there.
“Q. So it would be right at the opening of where you put your tampon?
“A. Yeah, like he wasn’t able to get it all the way in because I was clenching my legs and, you know,
fighting back.
“Q. Okay, you said you also felt his fingers?
“A. Yes.
“Q. Where on your body did you feel his fingers?
“A. In my vagina area.
“Q. Okay, when you describe your vagina area, would you say that his fingers went into the same spot that
you described the smooth object going into?
“A. Yes.”
On cross-examination, defense counsel asked whether the area where the object and finger went was “inside your
vagina or outside?” K.D. answered, “It is right outside and inside, it is just a thin skin right there, you know, it is
where a baby comes out and it stretches right there.” The prosecutor again asked whether the place where the finger
and object went was “inside your vagina, or somewhere else?” K.D. said, “It was inside but, you know, there was
force there because my legs were shut so tight when it was happening because I was fighting against it....”
6
The posterior fourchette is a fold joining the inner labia at the posterior of the vulva. (Steadman’s Medical Dict.
(25th ed. 1989) pp. 615, col. 1, 620, col. 1.)

3

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 4 of 22

1
2
3
4

sensation of pain during the exam. Further, a blunt force trauma inflicted through
clothing could have caused the injury to the fourchette.
Dr. Hoffman also testified about photographs of K.D.’s injuries taken during
Driscoll’s examination. He opined that the abrasions on the fourchette were
consistent with forcible sexual contact. During consensual sex, the area of the
fourchette relaxes and retracts. In a sexual assault, however, the area constricts
and is often injured. He also stated the fourchette is inside the vagina.

5
6
7
8

Ruben Vega testified that he was with Rodriguez and two men named Hernan and
Eduardo on the night of the attack. They went to a bar and played pool.
Afterward, they went out to the parking lot where Vega’s pickup truck and
Hernan’s car were parked. A woman walked by and Rodriguez or Eduardo called
out to her. Rodriguez approached the woman. Hernan drove slowly up to
Rodriguez and the woman, his passenger door open. Vega backed away from
them in his truck and left the parking lot. He heard someone scream as he left.

9
10
11
12
13
14
15

While Rodriguez was in custody, detectives interviewed him through a Spanishlanguage interpreter. A video recording of the interview was played for the jury.
In it, Rodriguez admitted he had an encounter with K.D. on the night of August
11, 2013. In his version of events, when he met her in the alley after leaving the
bar, he asked her if she wanted a ride. She told him to meet her further down the
alley, and when he did, she offered to have sex with him for money. He said he
had $24 and she said she would take it. When he began touching her, however,
she became angry, said she did not want to have sex “like this,” and slapped him.
He became angry, pushed her down, took her purse, and ran to his friend’s car. He
said he was not sure why he took the purse. He said he was drunk and did not
have a very clear memory of the encounter, but he denied putting his hand inside
her pants, pulling her pants down, or knocking her head against the wall.
Rodriguez did not testify at trial.

16
17

A business near K.D.’s apartment building was equipped with surveillance
cameras, which made video recordings of the attack. The recordings were played
for the jury. They are not included in the appellate record.

18
19
20
21
22
23
24

Detective James Edlund interviewed K.D. twice. The first interview was on the
night of the attack, August 11, 2013, and the second was the day before trial,
October 6, 2014. Defense counsel examined Edlund in an effort to bring out
discrepancies between K.D.’s statements in the first interview, the second
interview, and her trial testimony. K.D. told Edlund the men’s catcalling included
“kissing sound[s],” but in her testimony she said she did not recall saying this.
She told Edlund that Rodriguez pulled her underpants to the side but testified that
he pulled them down. She testified that Rodriguez said something in broken
English about going to a house, but did not mention this in her first interview with
Edlund. In the first interview with Edlund, K.D. said Rodriguez placed his hand
on her shoulder and then moved it to her waist. In the second, she said he grabbed
her shoulder. In the first interview, she said Rodriguez grabbed her breast. She did
not mention this in the second interview.

25
26
27

Edlund testified he did not remember K.D. saying during the second interview
that she felt Rodriguez’s finger and another object on her vagina or that she felt
his fingers in the place where she inserts a tampon, although her trial testimony
included these statements. Subsequently, however, the parties stipulated that K.D.
did say these things during the second interview.

28

4

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 5 of 22

1

Defense counsel also pointed out that Driscoll, the nurse, testified K.D. said
Rodriguez told her he was going to abduct her. K.D. did not tell Edlund this.

2
3 Rodriguez, 2016 WL 6472106, at *1–3 (footnotes in original).
4

III.

5

STANDARD OF REVIEW

6

Relief by way of a petition for writ of habeas corpus extends to a person in custody

7 pursuant to the judgment of a state court if the custody is in violation of the Constitution or laws
8 or treaties of the United States. 28 U.S.C. § 2254(a); 28 U.S.C. § 2241(c)(3); Williams v. Taylor,
9 529 U.S. 362, 375 (2000). Petitioner asserts that he suffered violations of his rights as guaranteed
10 by the U.S. Constitution. The challenged convictions arise out of the Kings County Superior
11 Court, which is located within the Eastern District of California. 28 U.S.C. § 2241(d).
12

On April 24, 1996, Congress enacted the Antiterrorism and Effective Death Penalty Act

13 of 1996 (“AEDPA”), which applies to all petitions for writ of habeas corpus filed after its
14 enactment. Lindh v. Murphy, 521 U.S. 320 (1997); Jeffries v. Wood, 114 F.3d 1484, 1499 (9th
15 Cir. 1997) (en banc). The instant petition was filed after the enactment of AEDPA and is
16 therefore governed by its provisions.
17

Under AEDPA, relitigation of any claim adjudicated on the merits in state court is barred

18 unless a petitioner can show that the state court’s adjudication of his claim:
19
20
21

(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.

22
23 28 U.S.C. § 2254(d); Harrington v. Richter, 562 U.S. 86, 97–98 (2011); Lockyer v. Andrade, 538
24 U.S. 63, 70–71 (2003); Williams, 529 U.S. at 413.
25

As a threshold matter, this Court must “first decide what constitutes ‘clearly established

26 Federal law, as determined by the Supreme Court of the United States.’” Lockyer, 538 U.S. at 71
27 (quoting 28 U.S.C. § 2254(d)(1)). In ascertaining what is “clearly established Federal law,” this
28 Court must look to the “holdings, as opposed to the dicta, of [the Supreme Court’s] decisions as

5

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 6 of 22
1 of the time of the relevant state-court decision.” Williams, 529 U.S. at 412. “In other words,
2 ‘clearly established Federal law’ under § 2254(d)(1) is the governing legal principle or principles
3 set forth by the Supreme Court at the time the state court renders its decision.” Id. In addition,
4 the Supreme Court decision must “‘squarely address [] the issue in th[e] case’ or establish a legal
5 principle that ‘clearly extend[s]’ to a new context to the extent required by the Supreme Court in
6 . . . recent decisions”; otherwise, there is no clearly established Federal law for purposes of
7 review under AEDPA. Moses v. Payne, 555 F.3d 742, 754 (9th Cir. 2009) (quoting Wright v.
8 Van Patten, 552 U.S. 120, 125 (2008)); Panetti v. Quarterman, 551 U.S. 930 (2007); Carey v.
9 Musladin, 549 U.S. 70 (2006). If no clearly established Federal law exists, the inquiry is at an
10 end and the Court must defer to the state court’s decision. Musladin, 549 U.S. 70; Wright, 552
11 U.S. at 126; Moses, 555 F.3d at 760.
12

If the Court determines there is governing clearly established Federal law, the Court must

13 then consider whether the state court’s decision was “contrary to, or involved an unreasonable
14 application of, [the] clearly established Federal law.” Lockyer, 538 U.S. at 72 (quoting 28 U.S.C.
15 § 2254(d)(1)). “Under the ‘contrary to’ clause, a federal habeas court may grant the writ if the
16 state court arrives at a conclusion opposite to that reached by [the Supreme] Court on a question
17 of law or if the state court decides a case differently than [the] Court has on a set of materially
18 indistinguishable facts.” Williams, 529 U.S. at 412–13; see also Lockyer, 538 U.S. at 72. “The
19 word ‘contrary’ is commonly understood to mean ‘diametrically different,’ ‘opposite in character
20 or nature,’ or ‘mutually opposed.’” Williams, 529 U.S. at 405 (quoting Webster’s Third New
21 International Dictionary 495 (1976)). “A state-court decision will certainly be contrary to
22 [Supreme Court] clearly established precedent if the state court applies a rule that contradicts the
23 governing law set forth in [Supreme Court] cases.” Id. If the state court decision is “contrary to”
24 clearly established Supreme Court precedent, the state decision is reviewed under the pre25 AEDPA de novo standard. Frantz v. Hazey, 533 F.3d 724, 735 (9th Cir. 2008) (en banc).
26

“Under the ‘reasonable application clause,’ a federal habeas court may grant the writ if

27 the state court identifies the correct governing legal principle from [the] Court’s decisions but
28 unreasonably applies that principle to the facts of the prisoner’s case.” Williams, 529 U.S. at 413.

6

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 7 of 22
1 “[A] federal court may not issue the writ simply because the court concludes in its independent
2 judgment that the relevant state court decision applied clearly established federal law erroneously
3 or incorrectly. Rather, that application must also be unreasonable.” Id. at 411; see also Lockyer,
4 538 U.S. at 75–76. The writ may issue only “where there is no possibility fair minded jurists
5 could disagree that the state court’s decision conflicts with [the Supreme Court’s] precedents.”
6 Richter, 562 U.S. at 102. In other words, so long as fair minded jurists could disagree on the
7 correctness of the state court’s decision, the decision cannot be considered unreasonable. Id. If
8 the Court determines that the state court decision is objectively unreasonable, and the error is not
9 structural, habeas relief is nonetheless unavailable unless the error had a substantial and injurious
10 effect on the verdict. Brecht v. Abrahamson, 507 U.S. 619, 637 (1993).
11

The court looks to the last reasoned state court decision as the basis for the state court

12 judgment. Stanley v. Cullen, 633 F.3d 852, 859 (9th Cir. 2011); Robinson v. Ignacio, 360 F.3d
13 1044, 1055 (9th Cir. 2004). If the last reasoned state court decision adopts or substantially
14 incorporates the reasoning from a previous state court decision, this court may consider both
15 decisions to ascertain the reasoning of the last decision. Edwards v. Lamarque, 475 F.3d 1121,
16 1126 (9th Cir. 2007) (en banc). “When a federal claim has been presented to a state court and the
17 state court has denied relief, it may be presumed that the state court adjudicated the claim on the
18 merits in the absence of any indication or state-law procedural principles to the contrary.”
19 Richter, 562 U.S. at 99. This presumption may be overcome by a showing “there is reason to
20 think some other explanation for the state court’s decision is more likely.” Id. at 99–100 (citing
21 Ylst v. Nunnemaker, 501 U.S. 797, 803 (1991)).
22

Where the state court reaches a decision on the merits but provides no reasoning to

23 support its conclusion, a federal habeas court independently reviews the record to determine
24 whether habeas corpus relief is available under § 2254(d). Stanley, 633 F.3d at 860; Himes v.
25 Thompson, 336 F.3d 848, 853 (9th Cir. 2003). “Independent review of the record is not de novo
26 review of the constitutional issue, but rather, the only method by which we can determine
27 whether a silent state court decision is objectively unreasonable.” Himes, 336 F.3d at 853. While
28 the federal court cannot analyze just what the state court did when it issued a summary denial,

7

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 8 of 22

1 the federal court must review the state court record to determine whether there was any
2 “reasonable basis for the state court to deny relief.” Richter, 562 U.S. at 98. This court “must
3 determine what arguments or theories . . . could have supported, the state court’s decision; and
4 then it must ask whether it is possible fairminded jurists could disagree that those arguments or
5 theories are inconsistent with the holding in a prior decision of [the Supreme] Court.” Id. at 102.
6

IV.

7

REVIEW OF CLAIMS

8

A. Uncharged False Imprisonment Offense

9

In his first claim for relief, Petitioner asserts that his conviction for felony false

10 imprisonment violates due process because the offense was not charged and it is not a
11 necessarily lesser-included offense of the attempted kidnapping charge. (ECF No. 1 at 4, 20).
12 Respondent argues that the state court’s rejection of this claim was reasonable because Petitioner
13 received adequate notice and waived any notice problem. (ECF No. 10 at 20).
14

Petitioner raised this claim on direct appeal to the California Court of Appeal, Fifth

15 Appellate District, which denied the claim in a reasoned decision. The California Supreme Court
16 summarily denied Petitioner’s petition for review. As federal courts review the last reasoned
17 state court opinion, the Court will “look through” the California Supreme Court’s summary
18 denial and examine the decision of the California Court of Appeal. See Brumfield v. Cain, 135 S.
19 Ct. 2269, 2276 (2015); Johnson v. Williams, 568 U.S. 289, 297 n.1 (2013); Ylst, 501 U.S. at 806.
20

In denying Petitioner’s claim challenging his false imprisonment conviction for lack of

21 notice, the California Court of Appeal stated:
22
23
24
25
26
27
28

Contrary to the language on the verdict form, false imprisonment is not a lesser
offense included in attempted kidnapping. A perpetrator can be guilty of
attempted kidnapping even though no false imprisonment took place because the
perpetrator failed in his attempt to restrain the victim’s movement. Rodriguez
argues that, for this reason, the jury could not properly find him guilty of false
imprisonment, since only attempted kidnapping was charged in the information.
Rodriguez is mistaken. As we will explain, his failure to object to the jury
instructions on false imprisonment amounted to his implied consent to submit that
charge to the jury, and consequently that conviction was appropriate even though
it was not charged and was not a lesser offense included in a charged offense.
Ordinarily, due process principles would be offended if a defendant were
convicted of an offense that is neither charged in the accusatory pleading nor
8

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 9 of 22

1
2
3
4
5

necessarily included in a charged offense. (People v. Lohbauer (1981) 29 Cal.3d
364, 368–369; People v. West (1970) 3 Cal.3d 595, 612.) There is an exception to
this rule when a defendant consents to the jury being instructed on an uncharged
offense. (People v. Ramirez (1987) 189 Cal.App.3d 603, 622; People v. Geiger
(1984) 35 Cal.3d 510, 526 (Geiger), overruled on other grounds by People v.
Birks (1998) 19 Cal.4th 108, 136 (Birks).) A defendant can be deemed to have
given consent when the court proposes to instruct the jury on an uncharged
offense and the defendant makes no objection. (People v. Toro (1989) 47 Cal.3d
966, 978 (Toro), overruled on other grounds by People v. Guiuan (1998) 18
Cal.4th 558, 568, fn. 3; People v. Mata (2013) 57 Cal.4th 178, 186 (Mata).)

6
7
8
9
10

That is precisely what happened in this case. After the parties concluded their
presentation of evidence, the court and parties discussed jury instructions on the
record. At the end of this discussion, the court asked defense counsel, “[A]re the
instructions as in your possession at the current moment acceptable to you?”
Defense counsel said yes. The packet of instructions included an instruction on
false imprisonment in accordance with CALCRIM No. 1240. When the court read
this instruction to the jury, defense counsel did not object. Given ample
opportunity to object to the submission of the offense of false imprisonment to the
jury, the defense elected not to do so and thus impliedly consented.

11
12
13
14

Rodriguez suggests a somewhat convoluted reason why we should not hold he
impliedly consented to the instruction even though he did not object. He
maintains the holding of Toro, supra, 47 Cal.3d at page 978—that a lack of
objection can be construed as an implied consent in this situation—has been
effectively overruled. This argument is based on the facts that Birks, supra, 19
Cal.4th at page 136, overruled one of the holdings in Geiger, supra, 35 Cal.3d
510, and Toro cited Geiger.

15
16
17
18
19
20
21
22
23
24
25
26

The argument fails because the proposition in Geiger overruled by Birks had
nothing to do with implied consent via failure to object. Instead, it was about a
defendant’s right to insist on a jury instruction on a lesser, nonincluded offense.
(Birks, supra, 19 Cal.4th at p. 136 [defendant has no such right].) Rodriguez says
Toro “based its conclusion that the defendant impliedly consented to the charge in
part on the absolute right of a defendant to demand lesser related offense
instructions,” but this is not correct. Toro based its conclusion in part on the view
that instructions on such charges can be beneficial to a defendant, who
consequently might wish to accept them without objection when proposed by the
prosecution. (Toro, supra, 47 Cal.3d at pp. 974–975.) The Geiger court thought
this view helped to show that a defendant should have the right to demand such
instructions. (Geiger, supra, 35 Cal.3d at p. 529.) That there turns out to be no
such right does not mean the instructions cannot be beneficial to a defendant or
that this benefit fails to support the rule on implied consent.
If there were any doubt that Toro remains good law on the point at issue, it would
be dispelled by Mata, supra, 57 Cal.4th at page 186. There our Supreme Court
stated: “ ‘Assent’ ... encompasses positive agreement as well as passive
concession. Our discussion of implied consent in [Toro] also supports this
conclusion. In Toro, we held that consent to instructions on an uncharged lesser
related offense could be inferred from defense counsel’s failure to object, and that
such failure to object ‘bar[s] a contention based on lack of notice.’ [Citations.]”
(Ibid.) This is a post-Birks reaffirmation of Toro’s holding on implied consent.

27
28

Rodriguez next contends Toro is distinguishable. He says that in Toro the court
was motivated in part by indications in the record that Toro effectively conceded

9

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 10 of 22

1
2
3
4
5
6
7
8

he was guilty of some offense. Toro’s counsel conceded during closing argument
that Toro stabbed the victim. (Toro, supra, 47 Cal.3d at p. 977.) Rodriguez argues
that he, by contrast, never admitted he did anything to restrain K.D.’s liberty. In
his police interview, he only said he agreed to pay her for sex and then stole her
purse. We do not read Toro, however, as holding that implied consent arises only
when a defendant admits he is guilty of some offense related to a charged offense.
Declining to object to an instruction on a lesser, nonincluded offense can be a
wise backup strategy even when a defendant’s primary goal is acquittal of all
charges. Defense counsel could reasonably have found it wise in this case.
Rodriguez admitted to police he was the person who committed a crime against
K.D. in the alley that night, and the jury saw surveillance video of what he did. If
the video showed him restraining or trying to restrain her, giving the jury a third
option between finding him guilty of attempted kidnapping and finding him guilty
of no offense involving restraint was a sound plan. The implied consent rule is
applicable.

9 Rodriguez, 2016 WL 6472106, at *4–5.
10

“No principle of procedural due process is more clearly established than that notice of the

11 specific charge, and a chance to be heard in a trial of the issues raised by that charge, if desired,
12 are among the constitutional rights of every accused in a criminal proceeding in all courts, state
13 or federal.” Cole v. Arkansas, 333 U.S. 196, 201 (1948). Here, however, the state court found
14 that Petitioner impliedly consented to the jury being instructed on an uncharged offense, thereby
15 effectively waiving his right to notice.
16

The Supreme Court has “recognized that ‘the most basic rights of criminal defendants are

17 . . . subject to waiver.” New York v. Hill, 528 U.S. 110, 114 (2000) (quoting Peretz v. United
18 States, 501 U.S. 923, 936 (1991)).
19
20
21
22
23
24
25
26
27
28

What suffices for waiver depends on the nature of the right at issue. “[W]hether
the defendant must participate personally in the waiver; whether certain
procedures are required for waiver; and whether the defendant’s choice must be
particularly informed or voluntary, all depend on the right at stake.” United States
v. Olano, 507 U.S. 725, 733, 113 S.Ct. 1770, 123 L.Ed.2d 508 (1993). For certain
fundamental rights, the defendant must personally make an informed waiver. See,
e.g., Johnson v. Zerbst, 304 U.S. 458, 464-465, 58 S.Ct. 1019, 82 L.Ed. 1461
(1938) (right to counsel); Brookhart v. Janis, 384 U.S. 1, 7-8, 86 S.Ct. 1245, 16
L.Ed.2d 314 (1966) (right to plead not guilty). For other rights, however, waiver
may be effected by action of counsel. “Although there are basic rights that the
attorney cannot waive without the fully informed and publicly acknowledged
consent of the client, the lawyer has-and must have-full authority to manage the
conduct of the trial.” Taylor v. Illinois, 484 U.S. 400, 417-418, 108 S.Ct. 646, 98
L.Ed.2d 798 (1988). As to many decisions pertaining to the conduct of the trial,
the defendant is “deemed bound by the acts of his lawyer-agent and is considered
to have ‘notice of all facts, notice of which can be charged upon the attorney.’ ”
Link v. Wabash R. Co., 370 U.S. 626, 634, 82 S.Ct. 1386, 8 L.Ed.2d 734 (1962)
(quoting Smith v. Ayer, 101 U.S. 320, 326, 25 L.Ed. 955 (1880)). Thus, decisions
by counsel are generally given effect as to what arguments to pursue, see Jones v.

10

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 11 of 22

Barnes, 463 U.S. 745, 751, 103 S.Ct. 3308, 77 L.Ed.2d 987 (1983), what
evidentiary objections to raise, see Henry v. Mississippi, 379 U.S. 443, 451, 85
S.Ct. 564, 13 L.Ed.2d 408 (1965), and what agreements to conclude regarding the
admission of evidence, see United States v. McGill, 11 F.3d 223, 226-227 (C.A.1
1993). Absent a demonstration of ineffectiveness, counsel’s word on such matters
is the last.

1
2
3
4

5 Hill, 528 U.S. at 114–15.
Petitioner has not identified, and the Court has not found, any Supreme Court case setting

6

7 forth what suffices for waiver of notice of a lesser offense. When a Supreme Court case “does
8 not ‘squarely address[] the issue in th[e] case’ or establish a legal principle that ‘clearly
9 extend[s]’ to a new context to the extent required by the Supreme Court . . . it cannot be said,
10 under AEDPA, there is ‘clearly established’ Supreme Court precedent addressing the issue
11 before us, and so we must defer to the state court’s decision.” Moses, 555 F.3d at 754 (alterations
12 in original) (citations omitted). The state court’s denial of Petitioner’s notice claim was not
7
13 contrary to, or an unreasonable application of, clearly established federal law, nor was it based

14 on an unreasonable determination of fact. The decision was not “so lacking in justification that
15 there was an error well understood and comprehended in existing law beyond any possibility of
16 fairminded disagreement.” Richter, 562 U.S. at 103. Accordingly, Petitioner is not entitled to
17 habeas relief on his first claim, and it should be denied.
18

B. Instructional Error

19

In his second claim for relief, Petitioner asserts that his convictions for assault with intent

20 to commit sexual penetration (count 6) and sexual penetration (count 7) must be reversed
21 because the trial court failed to sua sponte instruct the jury on the proper use of circumstantial
22 evidence. (ECF No. 1 at 4, 31). Respondent argues that the state court’s rejection of this claim
23 was reasonable. (ECF No. 10 at 21).
Petitioner raised this claim on direct appeal to the California Court of Appeal, Fifth

24

25 Appellate District, which denied the claim in a reasoned decision. The California Supreme Court
26
7

Although the California Court of Appeal did not cite to any federal authority on this issue, the pertinent inquiry is

27 whether it “reasonably applied the principles contained in relevant Supreme Court precedent.” Parker v. Small, 665
F.3d 1143, 1148 n.1 (9th Cir. 2011) (citing Early v. Packer, 537 U.S. 3, 8 (2002)). The Supreme Court has noted that

28 a state court is not required to cite or even be aware of its cases under § 2254(d). Early, 537 U.S. at 8.
11

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 12 of 22
1 summarily denied Petitioner’s petition for review. As federal courts review the last reasoned
2 state court opinion, the Court will “look through” the California Supreme Court’s summary
3 denial and examine the decision of the California Court of Appeal. See Brumfield, 135 S. Ct. at
4 2276; Ylst, 501 U.S. at 806.
5

In denying Petitioner’s instructional error claim, the California Court of Appeal stated:

6

Rodriguez argues the court erred because it did not, on its own motion, instruct
the jury with CALCRIM No. 224, which states:

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

“Before you may rely on circumstantial evidence to conclude that a fact
necessary to find the defendant guilty has been proved, you must be
convinced that the People have proved each fact essential to that
conclusion beyond a reasonable doubt.
“Also, before you may rely on circumstantial evidence to find the
defendant guilty, you must be convinced that the only reasonable
conclusion supported by the circumstantial evidence is that the defendant
is guilty. If you can draw two or more reasonable conclusions from the
circumstantial evidence, and one of those reasonable conclusions points to
innocence and another to guilt, you must accept the one that points to
innocence. However, when considering circumstantial evidence, you must
accept only reasonable conclusions and reject any that are unreasonable.”
As we will explain, giving this instruction would have been inappropriate under
the circumstances. There was no error.
The principles relevant to this instruction are not in dispute and are concisely
stated in the bench notes to the instruction. The trial court has a sua sponte duty to
give the instruction “if the prosecution substantially relies on circumstantial
evidence to establish any element of the case.” (Bench Notes, CALCRIM No. 224
(2016 ed.), p. 63.) But there is no such duty “when the circumstantial evidence is
incidental to and corroborative of direct evidence.” (Ibid.) In fact, this type of
instruction can be confusing and ought not to be given if circumstantial evidence
is “not the primary means by which the prosecution seeks to establish that the
defendant engaged in criminal conduct....” (People v. Anderson (2001) 25 Cal.4th
543, 582 (Anderson) [discussing similar CALJIC instruction].)
Rodriguez’s contention is that the medical testimony about K.D.’s injuries was
circumstantial evidence that she was sexually assaulted. He says this evidence
was equally consistent with two conclusions: that Rodriguez assaulted K.D. and
inflicted the injuries with his fingers (as the jury found), or that K.D. sustained the
injuries in some other way, such as through rough consensual sex with her
boyfriend or a traumatic impact of some kind. Rodriguez further argues that,
although K.D.’s testimony was direct evidence she sustained the injuries via
Rodriguez’s assault, the medical testimony was “more than just corroborative” of
K.D.’s testimony. In Rodriguez’s view, it was prejudicially erroneous not to give
CALCRIM No. 224 under these circumstances.
The medical testimony was merely corroborative of K.D.’s testimony, however,
for K.D.’s testimony was the “primary means by which the prosecution [sought]
to establish” Rodriguez’s guilt of a sexual offense. (Anderson, supra, 25 Cal.4th
12

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 13 of 22

1
2
3
4
5
6

at p. 582.) “[B]y introducing circumstantial evidence merely to corroborate an
eyewitness, the prosecution did not substantially rely on such evidence,” and the
court’s omission of the instruction was correct, just as in Anderson. (Ibid.)
Rodriguez’s own argument tends to show not only that the court was not required
to give the instruction, but that giving it would have been error. He says, “Without
CALCRIM [No.] 224, the jury could not have known that the circumstantial
evidence had to be not only consistent with guilt, but also irreconcilable with any
other rational conclusion....” But CALCRIM No. 224 obviously is not intended to
require acquittal whenever circumstantial evidence is consistent with innocence,
even though there is primary direct evidence that suffices to prove guilt.

7 Rodriguez, 2016 WL 6472106, at *5–6.
8

“[T]he fact that an instruction was allegedly incorrect under state law is not a basis for

9 [federal] habeas relief.” Estelle v. McGuire, 502 U.S. 62, 71–72 (1991). A federal court’s inquiry
10 on habeas review is not whether a challenged jury instruction “is undesirable, erroneous, or even
11 ‘universally condemned,’ but [whether] it violated some right which was guaranteed to the
12 defendant by the Fourteenth Amendment.” Cupp v. Naughten, 414 U.S. 141, 146 (1973). “[N]ot
13 every ambiguity, inconsistency, or deficiency in a jury instruction rises to the level of a due
14 process violation.” Middleton v. McNeil, 541 U.S. 433, 437 (2004). The pertinent question is
15 “whether the ailing instruction by itself so infected the entire trial that the resulting conviction
16 violates due process.” Cupp, 414 U.S. at 147. “It is well established that the instruction ‘may not
17 be judged in artificial isolation,’ but must be considered in the context of the instructions as a
18 whole and the trial record.” Estelle, 502 U.S. at 72 (quoting Cupp, 414 U.S. at 147). This
19 standard also applies to omitted instructions, Murtishaw v. Woodford, 255 F.3d 926, 971 (9th
20 Cir. 2001), but Petitioner’s “burden is especially heavy because no erroneous instruction was
21 given . . . . An omission, or an incomplete instruction, is less likely to be prejudicial than a
22 misstatement of the law.” Henderson v. Kibbe, 431 U.S. 145, 155 (1977).
23

Although the jury was not instructed with CALCRIM No. 224, the trial court did instruct

24 the jury:
25
26
27

Both direct and circumstantial evidence are acceptable types of evidence to prove
or disprove the elements of a charge, including intent and mental state and acts
necessary to a conviction, and neither is necessarily more reliable than the other.
Neither is entitled to any greater weight than the other. You must decide whether
a fact in issue has been proved based on all the evidence.

28 (CT 154; 5 RT 914) (emphasis added). The trial court instructed the jury that circumstantial

13

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 14 of 22

1 evidence is acceptable evidence to disprove any element of a charge, and as noted by the
2 California Court of Appeal, “CALCRIM No. 224 obviously is not intended to require acquittal
3 whenever circumstantial evidence is consistent with innocence, even though there is primary
4 direct evidence that suffices to prove guilt.” Rodriguez, 2016 WL 6472106, at *6.
In light of the victim’s testimony, which constituted direct evidence regarding

5

6 Petitioner’s guilt, the trial court’s instruction that circumstantial evidence can disprove elements
7 of a charge, and the fact that CALCRIM No. 224 would not require acquittal if circumstance
8 evidence is consistent with innocence, the omission of CALCRIM No. 224 did not “so infect[]
9 the entire trial that the resulting conviction violates due process.” Cupp, 414 U.S. at 147.
The Court finds that the state court’s denial of Petitioner’s instructional error claim was

10

11 not contrary to, or an unreasonable application of, clearly established federal law, 8 nor was it
12 based on an unreasonable determination of fact. The decision was not “so lacking in justification
13 that there was an error well understood and comprehended in existing law beyond any possibility
14 of fairminded disagreement.” Richter, 562 U.S. at 103. Accordingly, Petitioner is not entitled to
15 habeas relief on his second claim, and it should be denied.
16

C. Ineffective Assistance of Counsel

17

In his third claim for relief, Petitioner asserts that trial counsel was ineffective by failing

18 to request CALCRIM 355, which instructs the jury not to consider for any reason the fact that a
19 defendant did not testify. (ECF No. 1 at 5, 42). Respondent argues that the state court’s rejection
20 of this claim was reasonable. (ECF No. 10 at 24).
This ineffective assistance of counsel claim was raised on direct appeal to the California

21

22 Court of Appeal, Fifth Appellate District, which denied the claim in a reasoned decision. The
23 California Supreme Court summarily denied Petitioner’s petition for review. As federal courts
24 review the last reasoned state court opinion, the Court will “look through” the California
25 Supreme Court’s summary denial and examine the decision of the California Court of Appeal.
26
8

Although the California Court of Appeal did not cite to any federal authority on this issue, the pertinent inquiry is

27 whether it “reasonably applied the principles contained in relevant Supreme Court precedent.” Parker, 665 F.3d at
1148 n.1 (citing Early, 537 U.S. at 8). The Supreme Court has noted that a state court is not required to cite or even

28 be aware of its cases under § 2254(d). Early, 537 U.S. at 8.

14

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 15 of 22

1 See Brumfield, 135 S. Ct. at 2276; Ylst, 501 U.S. at 806.
2

In denying Petitioner’s ineffective assistance of counsel claim, the California Court of

3 Appeal stated:
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

Rodriguez next contends his trial counsel rendered ineffective assistance by not
requesting an instruction in accordance with CALCRIM No. 355, which states:
“A defendant has an absolute constitutional right not to testify. He or she
may rely on the state of the evidence and argue that the People have failed
to prove the charges beyond a reasonable doubt. Do not consider, for any
reason at all, the fact that the defendant did not testify. Do not discuss that
fact during your deliberations or let it influence your decision in any way.”
The trial court has no duty to give this type of instruction on its own motion.
(People v. Lewis (1990) 50 Cal.3d 262, 282.) Rodriguez did not request it.
To establish ineffective assistance of counsel, a defendant must show that
counsel’s performance “fell below an objective standard of reasonableness,” and
that “there is a reasonable probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.” (Strickland v.
Washington (1984) 466 U.S. 668, 688, 694; see also People v. Hester (2000) 22
Cal.4th 290, 296.) When determining whether counsel’s performance was
professionally unreasonable, we must consider whether the appellate record
affirmatively shows this or whether, by contrast, it is possible that considerations
not appearing in the record could have justified counsel’s conduct. If the situation
is simply that nothing could justify the attorney’s action, then we can find
ineffective assistance on direct appeal; but if counsel could have had a tactical
reason for acting as he or she did, and this reason does not appear in the record,
then the matter should be addressed instead in habeas proceedings, where a record
of counsel’s reasons can be developed. (People v. Pope (1979) 23 Cal.3d 412,
425–426, overruled on other grounds in People v. Berryman (1993) 6 Cal.4th
1048, 1081, fn. 10; In re Dennis H. (2001) 88 Cal.App.4th 94, 98 & fn. 1; People
v Plager (1987) 196 Cal.App.3d 1537, 1543.)
In this case, it is possible defense counsel could reasonably have believed
CALCRIM No. 355 would have been harmful to Rodriguez’s interests. As
Rodriguez is aware, our Supreme Court has stated that an instruction on a
defendant’s refraining from testifying can be undesirable from the defense
perspective because it can direct the jury’s “attention to the fact that the defendant
is not testifying at the same time that it cautions the jury not to draw any adverse
inferences from such failure to testify.” (People v. Stanley (2006) 39 Cal.4th 913,
966.) Defense counsel might reasonably choose not to highlight a defendant’s
silence.
Nothing in the record in this case is inconsistent with the conclusion that counsel
made that choice at trial. Rodriguez now says the jury could have wondered why
he made a statement to the police but was silent at trial, and the instruction could
have deterred any adverse speculations they might have made about this. It is just
as likely, however, that the video recording of Rodriguez’s statement to the police
satisfied the jurors’ desire to hear him giving his side of the story, and that
CALCRIM No. 355 would only have stoked suspicions about his in-court silence
that would not otherwise have occurred to them. Since the record does not reveal

15

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 16 of 22

1

counsel’s reasoning on the matter, it would not be appropriate on direct appeal to
find ineffective assistance based on the omission of a request for the instruction.

2
3 Rodriguez, 2016 WL 6472106, at *6–7.
4

1. Legal Standard

5

The clearly established federal law governing ineffective assistance of counsel claims is

6 Strickland v. Washington, 466 U.S. 668 (1984). In a petition for writ of habeas corpus alleging
7 ineffective assistance of counsel, the court must consider two factors. Strickland, 466 U.S. at
8 687. First, the petitioner must show that counsel’s performance was deficient, requiring a
9 showing that counsel made errors so serious that he or she was not functioning as the “counsel”
10 guaranteed by the Sixth Amendment. Id. at 687. The petitioner must show that counsel’s
11 representation fell below an objective standard of reasonableness, and must identify counsel’s
12 alleged acts or omissions that were not the result of reasonable professional judgment
13 considering the circumstances. Richter, 562 U.S. at 105 (“The question is whether an attorney’s
14 representation amounted to incompetence under ‘prevailing professional norms,’ not whether it
15 deviated from best practices or most common custom.”) (citing Strickland, 466 U.S. at 690).
16 Judicial scrutiny of counsel’s performance is highly deferential. A court indulges a strong
17 presumption that counsel’s conduct falls within the wide range of reasonable professional
18 assistance. Strickland, 466 U.S. at 687. A reviewing court should make every effort “to eliminate
19 the distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged
20 conduct, and to evaluate the conduct from counsel’s perspective at that time.” Id. at 689.
21

Second, the petitioner must show that there is a reasonable probability that, but for

22 counsel’s unprofessional errors, the result would have been different. It is not enough “to show
23 that the errors had some conceivable effect on the outcome of the proceeding.” Strickland, 466
24 U.S. at 693. “A reasonable probability is a probability sufficient to undermine confidence in the
25 outcome.” Id. at 694. A court “asks whether it is ‘reasonable likely’ the result would have been
26 different. . . . The likelihood of a different result must be substantial, not just conceivable.”
27 Richter, 562 U.S. at 111–12 (citing Strickland, 466 U.S. at 696, 693). A reviewing court may
28 review the prejudice prong first. See Pizzuto v. Arave, 280 F.3d 949, 955 (9th Cir. 2002).

16

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 17 of 22

1

When § 2254(d) applies, “[t]he pivotal question is whether the state court’s application of

2 the Strickland standard was unreasonable. This is different from asking whether defense
3 counsel’s performance fell below Strickland’s standard.” Richter, 562 U.S. at 101. Moreover,
4 because Strickland articulates “a general standard, a state court has even more latitude to
5 reasonably determine that a defendant has not satisfied that standard.” Knowles v. Mirzayance,
6 556 U.S. 111, 123 (2009) (citing Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). “The
7 standards created by Strickland and § 2254(d) are both ‘highly deferential,’ and when the two
8 apply in tandem, review is ‘doubly’ so.” Richter, 562 U.S. at 105 (citations omitted). Thus, “for
9 claims of ineffective assistance of counsel . . . AEDPA review must be ‘doubly deferential’ in
10 order to afford ‘both the state court and the defense attorney the benefit of the doubt.’” Woods v.
11 Donald, 135 S. Ct. 1372, 1376 (2015) (quoting Burt v. Titlow, 134 S. Ct. 10, 13 (2013)). When
12 this “doubly deferential” judicial review applies, the inquiry is “whether there is any reasonable
13 argument that counsel satisfied Strickland’s deferential standard.” Richter, 562 U.S. at 105.
14

2. Analysis

15

The Court “must indulge a strong presumption that counsel’s conduct falls within the

16 wide range of reasonable professional assistance; that is, the defendant must overcome the
17 presumption that, under the circumstances, the challenged action ‘might be considered sound
18 trial strategy.’” Strickland, 466 U.S. at 689 (quoting Michel v. Louisiana, 350 U.S. 91, 101
19 (1955)). As noted by the California Court of Appeal, one tactical reason for not requesting an
20 instruction in accordance with CALCRIM No. 355 would be to draw less attention to the fact
21 that Petitioner did not testify. Petitioner has failed to overcome the presumption that counsel’s
22 action might be considered sound trial strategy.
23

Under AEDPA’s “doubly deferential” review of ineffective assistance of counsel claims,

24 Donald, 135 S. Ct. at 1376, the Court finds that the state court’s decision denying Petitioner’s
25 ineffective assistance claim was not contrary to, or an unreasonable application of, clearly
26 established federal law, nor was it based on an unreasonable determination of fact. The decision
27 was not “so lacking in justification that there was an error well understood and comprehended in
28 existing law beyond any possibility for fairminded disagreement.” Richter, 562 U.S. at 103.

17

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 18 of 22

1 Based on the foregoing, Petitioner is not entitled to habeas relief on his third claim, and it should
2 be denied.
3

D. Sentencing Error

4

In his fourth claim for relief, Petitioner asserts that the trial court erred in failing to stay

5 punishment on count 5. (ECF No. 1 at 5, 50). Respondent argues that this claim is not cognizable
6 in federal habeas corpus and that the state court’s denial of this claim was reasonable. (ECF No.
7 10 at 28).
8

This claim was raised on direct appeal to the California Court of Appeal, Fifth Appellate

9 District, which denied the claim in a reasoned decision. The California Supreme Court
10 summarily denied Petitioner’s petition for review. As federal courts review the last reasoned
11 state court opinion, the Court will “look through” the California Supreme Court’s summary
12 denial and examine the decision of the California Court of Appeal. See Brumfield, 135 S. Ct. at
13 2276; Ylst, 501 U.S. at 806.
14

In denying Petitioner’s sentencing error claim, the California Court of Appeal stated:

15

III. Section 654

16

A. Assault with intent to commit a sexual offense
Rodriguez maintains the court should have applied section 654 to stay punishment
on count 5, assault with intent to commit a sexual offense, because it was
committed as part of the same course of conduct and with the same criminal
objective as count 6, sexual penetration by force. The People concede the two
offenses were part of the same course of conduct and were committed pursuant to
the same objective, but argue that a statutory exception to section 654 justified the
imposition of multiple punishments. We agree with the People.

17
18
19
20
21
22
23
24
25
26
27
28

Section 654 provides, in part, as follows:
“An act or omission that is punishable in different ways by different
provisions of law shall be punished under the provision that provides for
the longest potential term of imprisonment, but in no case shall the act or
omission be punished under more than one provision.”
This statute bars multiple punishment not only for a single criminal act but for a
single indivisible course of conduct in which the defendant had only one criminal
intent or objective. (People v. Bauer (1969) 1 Cal.3d 368, 376; In re Ward (1966)
64 Cal.2d 672, 675–676.)
Section 667.6, however, on which the trial court expressly relied, operates as an
exception to section 654. (People v. Hicks (1993) 6 Cal.4th 784, 796–797
(Hicks).) Subdivision (c) of section 667.6 provides in part:

18

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 19 of 22
“In lieu of the term provided in Section 1170.1,[9] a full, separate, and
consecutive term may be imposed for each violation of an offense
specified in subdivision (e) if the crimes involve the same victim on the
same occasion. A term may be imposed consecutively pursuant to this
subdivision if a person is convicted of at least one offense specified in
subdivision (e). If the term is imposed consecutively pursuant to this
subdivision, it shall be served consecutively to any other term of
imprisonment, and shall commence from the time the person otherwise
would have been released from imprisonment.”

1
2
3
4
5

Count 6, sexual penetration by force, is one of the offenses listed in section 667.6,
subdivision (e). The trial court therefore was authorized to impose a sentence for
count 6 consecutive to the sentence for count 5 (and the other counts) despite
section 654.

6
7
8

Rodriguez avers that section 667.6 no longer operates as an exception to section
654 because of an amendment to section 667.6 in 2006. In 1993, when Hicks,
supra, 6 Cal.4th 784, held that section 667.6 created an exception to section 654,
section 667.6, subdivision (c), included the following language: “ ‘In lieu of the
term provided by section 1170.1, a full, separate, and consecutive term may be
imposed for each violation of [specified sexual offenses] ... whether or not the
crimes were committed during a single transaction.’ ” (Hicks, supra, at p. 790,
italics added.) In 2006, Proposition 83 amended the statute. (Prop. 83, § 11, as
approved by voters, Gen. Elec. (Nov. 7, 2006).) The changes included replacing
the italicized language with the following: “if the crimes involve the same victim
on the same occasion.” (§ 667.6, subd. (c).)

9
10
11
12
13
14

According to Rodriguez, this change is significant because Hicks relied on the
earlier language. The Hicks court explained that in one version of the bill that
became section 667.6, the passage here in question read “ ‘whether or not the
crimes were committed with a single intent or objective or during a single
transaction.’ ” The phrase “with a single intent or objective or” was deleted from
the bill as enacted. (Hicks, supra, 6 Cal.4th at p. 792.) After reviewing the
legislative history, the court concluded: “Although it is unclear why the
Legislature removed the reference to ‘a single intent or objective’ from section
667.6(c), the only reasonable explanation for its retention of the phrase ‘whether
or not the crimes were committed during a single transaction’ is that the
Legislature intended to create an exception to section 654 that would allow
multiple punishment for separate criminal acts committed during an indivisible
course of conduct.” (Id. at p. 793.) Rodriguez says this reasoning means the
change effected by Proposition 83—from “whether or not the crimes were
committed during a single transaction” to “if the crimes involve the same victim
on the same occasion”—deprives the statute of its effect of creating an exception
to section 654.

15
16
17
18
19
20
21
22
23

The change does not have the significance Rodriguez attributes to it. The phrase
“if the crimes involve the same victim on the same occasion” in section 667.6,
subdivision (c), contrasts with “if the crimes involve separate victims or involve
the same victim on separate occasions” in section 667.6, subdivision (d).
Subdivision (c) allows consecutive sentences in the situation described there (a
consecutive term “may be imposed”), while subdivision (d) mandates consecutive
sentences (a consecutive term “shall be imposed”) (italics added). In allowing
multiple punishments in one class of cases and requiring them in another, the

24
25
26
27
28

9

Section 1170.1 includes provisions stating how consecutive terms ordinarily are to be calculated.

19

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 20 of 22

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

voters can hardly be deemed to have intended to abolish them in the former class
by reimposing section 654’s restrictions.
Rodriguez’s point could be that an “occasion” is possibly a longer, more
encompassing occurrence than a “transaction,” and that the voters meant to say
that, while consecutive sentences might be called for when a defendant is guilty of
enumerated crimes taking place during multiple transactions during a single
occasion, section 654 should still be applied to bar multiple punishments if
multiple enumerated crimes are committed within a single indivisible transaction.
Rodriguez has pointed us to nothing that would indicate the voters had this rather
unlikely intent, however.
B. False imprisonment
Rodriguez argues the court should have applied section 654 to stay the
punishment for false imprisonment in count 1 because it was part of the same
course of conduct and pursuant to the same objective as the assault and
penetration in counts 5 and 6. We review under the substantial evidence standard
the court's factual finding, implicit or explicit, of whether or not there was a single
criminal act or a course of conduct with a single criminal objective for purposes
of section 654. (People v. Coleman (1989) 48 Cal.3d 112, 162; People v. Ratcliff
(1990) 223 Cal.App.3d 1401, 1408.)
Felony false imprisonment requires the perpetrator to restrain the victim’s
freedom of movement by “violence, menace, fraud, or deceit.” (§ 237.) Fraud and
deceit are not at issue here. Rodriguez claims the only time the evidence showed
he used violence or menace was when he began striking her, and his acts of
striking her were part of the same course of conduct, and had the same objective,
as his sexual assault and forcible penetration.
The record does not support his contention. K.D.’s testimony supported the
conclusion that Rodriguez restricted her freedom of movement almost from the
very beginning of the encounter. After the catcalling, Rodriguez walked up to
K.D. and pulled her to him with his arm while his associate followed them up the
alley in a car with the door open. Rodriguez’s arm interfered with K.D.’s
movement while the car limited her path of retreat. Few people isolated in an
alley would not feel menaced by behavior like Rodriguez’s up to that point. The
jury was instructed, in accordance with CALCRIM No. 1240, that “[m]enace
means a verbal or physical threat of harm. Threat of harm may be express or
implied.” Rodriguez does not claim this is an incorrect statement of the law. The
court could reasonably find Rodriguez’s acts at the beginning of the encounter
were an implied threat of harm.
Further, the court could reasonably find that, at this early point, Rodriguez had an
objective separate from the objective of sexually assaulting and forcibly
penetrating K.D. In his statement to the police, Rodriguez said that, at the
beginning of the encounter, he thought K.D. was a prostitute and his intent was to
pay her for consensual sex. The court could reasonably find, based on this
evidence, that Rodriguez’s initial objective when falsely imprisoning K.D. was to
corner her for the purpose of proposing and consummating this transaction. It
could further find that his intent to force himself on her developed later, when she
turned out not to be a prostitute. Thus, the court could reasonably find Rodriguez
falsely imprisoned K.D. at the beginning of the encounter with one objective, and
assaulted her later with another, distinct objective.

28

20

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 21 of 22

1
2
3
4
5
6
7
8

Rodriguez cites People v. Matian (1995) 35 Cal.App.4th 480 for the proposition
that felony false imprisonment by menace can be established only by evidence
that the defendant used a deadly weapon or verbally threatened harm, and
therefore his conduct at the beginning of the encounter could not be a basis for a
separate punishment for false imprisonment because he had not yet committed
false imprisonment at that time. We do not read Matian as supporting this view.
The court in that case merely observed that published cases of felony false
imprisonment “generally” involved a deadly weapon or an express threat and that
the only evidence of menace in the case before it, which it found insufficient, was
the facts that the defendant had committed sexual assaults against the victim a
short time before and then glared at her and got up from his chair when she tried
to leave. (Id. at pp. 485–487.) This is not a holding that there is no such thing as
menace consisting of a threat of harm implied by a course of behavior. We think
any woman approached by a stranger in an alley in the manner in which
Rodriguez approached K.D. would rightly consider herself threatened by a quite
specific and severe type of harm, the type that in fact ensued in this case.

9
10 Rodriguez, 2016 WL 6472106, at *7–9 (footnote in original).
11

Whether the punishment for count 5 should have been stayed pursuant to California Penal

12 Code section 654 is an issue of state sentencing law that is not cognizable in federal habeas. See
13 Wilson v. Corcoran, 562 U.S. 1, 5 (2010) (per curiam) (“[I]t is only noncompliance with federal
14 law that renders a State’s criminal judgment susceptible to collateral attack in the federal
15 courts.”); Estelle v. McGuire, 502 U.S. 62, 67–68 (1991) (“[I]t is not the province of a federal
16 habeas court to reexamine state-court determinations on state-law questions.”); Christian v.
17 Rhode, 41 F.3d 461, 469 (9th Cir. 1994) (“Absent a showing of fundamental unfairness, a state
18 court’s misapplication of its own sentencing laws does not justify federal habeas relief.”).
19 Accordingly, Petitioner is not entitled to habeas relief on his fourth claim, and it should be
20 denied.
21

V.

22

RECOMMENDATION

23

Based on the foregoing, the undersigned HEREBY RECOMMENDS that the petition for

24 writ of habeas corpus be DENIED.
25

This Findings and Recommendation is submitted to the assigned United States District

26 Court Judge, pursuant to the provisions of 28 U.S.C. § 636 (b)(1)(B) and Rule 304 of the Local
27 Rules of Practice for the United States District Court, Eastern District of California. Within
28 THIRTY (30) days after service of the Findings and Recommendation, any party may file

21

Case 1:17-cv-01040-DAD-SAB Document 16 Filed 06/20/18 Page 22 of 22

1 written objections with the court and serve a copy on all parties. Such a document should be
2 captioned “Objections to Magistrate Judge’s Findings and Recommendation.” Replies to the
3 objections shall be served and filed within fourteen (14) days after service of the objections. The
4 assigned District Judge will then review the Magistrate Judge’s ruling pursuant to 28 U.S.C. §
5 636(b)(1)(C). The parties are advised that failure to file objections within the specified time may
6 waive the right to appeal the District Court’s order. Wilkerson v. Wheeler, 772 F.3d 834, 839
7 (9th Cir. 2014) (citing Baxter v. Sullivan, 923 F.2d 1391, 1394 (9th Cir. 1991)).
8
9

IT IS SO ORDERED.

10 Dated:

June 19, 2018
UNITED STATES MAGISTRATE JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

22

Appendix D
Opinion of the California Court of Appeal

Filed 11/2/16 P. v. Rodriguez CA5

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIFTH APPELLATE DISTRICT
THE PEOPLE,
F070850
Plaintiff and Respondent,
(Super. Ct. No. 13CM3081-002)
v.
ALBERTO RODRIGUEZ,

OPINION

Defendant and Appellant.

APPEAL from a judgment of the Superior Court of Kings County. Steven D.
Barnes, Judge.
Randy S. Kravis, under appointment by the Court of Appeal, for Defendant and
Appellant.
Kamala D. Harris, Attorney General, Gerald A. Engler, Chief Assistant Attorney
General, Michael P. Farrell, Assistant Attorney General, Eric L. Christoffersen and Jesse
Witt, Deputy Attorneys General, for Plaintiff and Respondent.
-ooOooAfter attacking a woman in an alley, Alberto Rodriguez was convicted of sexual
penetration by force, assault with intent to commit a sexual offense, assault by means of
force likely to produce great bodily injury, false imprisonment, and robbery. In this

appeal he contends: (1) the false-imprisonment conviction should be reversed because
that crime was not charged in the information and was not necessarily included in any
crime charged in the information; (2) the court erred in failing to give a jury instruction
on circumstantial evidence, and defense counsel rendered ineffective assistance by failing
to request a jury instruction on the fact that Rodriguez did not testify at trial; (3) the
sentences for false imprisonment and assault with intent to commit a sexual offense
should have been stayed under Penal Code section 654. We affirm.
FACTS AND PROCEDURAL HISTORY
Based on K.D.’s identification of Rodriguez in a photo lineup, police arrested him
on August 13, 2013, two days after the attack. The district attorney filed an information
charging him with the following counts: (1) attempted kidnapping (Pen. Code,1 §§ 209,
subd. (b)(1), 664); (2) assault with a deadly weapon, namely, a cement wall (§ 245,
subd. (a)(1)); (3) sexual battery (§ 243.4, subd. (a)); (4) assault by means of force likely
to produce great bodily injury (§ 245, subd. (a)(4)); (5) assault with intent to commit a
sexual offense (§ 220, subd. (a)(1)); (6) sexual penetration by force using a finger (§ 289,
subd. (a)(1)(A)); (7) sexual penetration by force using an unidentified object (ibid.); and
(8) robbery (§ 211). Count 3, sexual battery, was dismissed at the prosecution’s request
during trial.
At trial, K.D. testified that she was returning to her apartment in downtown
Hanford around 7:00 p.m. on August 11, 2013, after walking around the corner to a store
for soda and cigarettes. The way to the rear entrance of the building passed through an
alley at the side. As K.D. entered the alley, some men standing by a car and a pickup
truck catcalled at her. Rodriguez walked up to K.D., put his arm around her, and pulled
her toward him. K.D. pulled away from him and walked faster, but Rodriguez matched
her pace and pulled her toward him again as the car followed them with the passenger
1Subsequent

statutory references are to the Penal Code unless otherwise indicated.
2.

door open. K.D. tried to reach an area near the rear entrance to the building where there
were lights and people inside might hear her screaming for help, but Rodriguez pulled her
toward the car and said something about coming to a house. When K.D. said “no,”
Rodriguez punched her head and face repeatedly with his fists. K.D. tried to guard her
head by crouching against a cement wall, but Rodriguez continued hitting her, causing
her face to strike the wall.
K.D. testified that Rodriguez then squeezed her neck with his hands until her
vision blacked out. She regained consciousness but could not stand and collapsed on the
pavement. As Rodriguez tried to get on top of her, K.D. crawled up against the wall and
curled herself into a fetal position to try to stop him from raping her. He pulled her pants
down to her knees and pulled her underpants part of the way down. K.D. felt his finger
and another object—something smooth and cool—in her crotch. The finger and the
object penetrated inside the flesh at the opening of the vagina.2

2K.D.’s

testimony on direct examination about exactly how Rodriguez penetrated
her was as follows:
“Q.

Okay, when you felt this object where did it go?

“A.

Where did it go?

“Q.

Yes.

“A.

Right in my vagina. [¶] … [¶]

“Q.

… So I don’t mean to get graphic with you, but do you use tampons?

“A.

Yes.

“Q. This item that you described, would it be—did you feel it in the
same place that you would put a tampon?
“A.

Yes.

“Q.

So it went inside of you?

“A. No, it was just right there at the edge, you know, where like your
perineum is, right there.
“Q.

So it would be right at the opening of where you put your tampon?
3.

Rodriguez withdrew his hand from K.D.’s crotch. She testified, “He stopped. He
stood over me, he looked just like in shock, like how is she still fighting, that was kind of
like the look he had on his face.” Then he grabbed her purse. She tried to hold on to it,
but then let go after a few seconds, hoping he would leave. K.D. saw Rodriguez walk
away toward the car, carrying the purse. She had a cut above her eye, multiple bumps on
her head, a swollen face, an abrasion under her arm where her purse strap had been,
bruises on her arms, and a burning sensation in her vaginal area. The purse contained a
cell phone, a prescription medication, a lipstick, and a wallet with $22 in cash.
K.D. identified Rodriguez, as he sat in the courtroom, as the perpetrator of the
attack.
Some neighbors who had heard K.D. scream came out to the alley and found her
lying injured on the ground. One testified that K.D. said her attacker “did stick his
fingers in her.”

“A. Yeah, like he wasn’t able to get it all the way in because I was
clenching my legs and, you know, fighting back.
“Q.

Okay, you said you also felt his fingers?

“A.

Yes.

“Q.

Where on your body did you feel his fingers?

“A.

In my vagina area.

“Q. Okay, when you describe your vagina area, would you say that his
fingers went into the same spot that you described the smooth object going
into?
“A.

Yes.”

On cross-examination, defense counsel asked whether the area where the object
and finger went was “inside your vagina or outside?” K.D. answered, “It is right outside
and inside, it is just a thin skin right there, you know, it is where a baby comes out and it
stretches right there.” The prosecutor again asked whether the place where the finger and
object went was “inside your vagina, or somewhere else?” K.D. said, “It was inside but,
you know, there was force there because my legs were shut so tight when it was
happening because I was fighting against it .…”
4.

Dr. Mark Hoffman examined K.D. at a hospital around 9:00 the same night. He
testified that K.D. told him a man attacked her, threw her to the ground, strangled her,
pulled her pants down, and placed his fingers and another object inside her vagina. He
examined her and found injuries on her head, neck, arm, knee and back, all consistent
with her description of the attack.
Patricia Driscoll, a registered nurse, testified that she performed a sexual assault
examination on K.D. that night at 1:15 a.m. In addition to the injuries on other parts of
K.D.’s body, Driscoll found redness on K.D.’s outer labia and posterior fourchette.3
During the examination, K.D. reported pain inside and outside her vagina. When
Driscoll put a speculum in place for the examination, K.D. cried out that it hurt. This was
not a normal reaction for an uninjured patient. Driscoll opined that her findings were
consistent with penetration by a finger or other object. On cross-examination, she stated
the injuries to K.D.’s vagina could have been caused by an object used during consensual
sex. She also said “[a]nything is possible” when asked whether the speculum could have
been a cause of K.D.’s sensation of pain during the exam. Further, a blunt force trauma
inflicted through clothing could have caused the injury to the fourchette.
Dr. Hoffman also testified about photographs of K.D.’s injuries taken during
Driscoll’s examination. He opined that the abrasions on the fourchette were consistent
with forcible sexual contact. During consensual sex, the area of the fourchette relaxes
and retracts. In a sexual assault, however, the area constricts and is often injured. He
also stated the fourchette is inside the vagina.
Ruben Vega testified that he was with Rodriguez and two men named Hernan and
Eduardo on the night of the attack. They went to a bar and played pool. Afterward, they
went out to the parking lot where Vega’s pickup truck and Hernan’s car were parked. A

3The

posterior fourchette is a fold joining the inner labia at the posterior of the
vulva. (Steadman’s Medical Dict. (25th ed. 1989) pp. 615, col. 1, 620, col. 1.)
5.

woman walked by and Rodriguez or Eduardo called out to her. Rodriguez approached
the woman. Hernan drove slowly up to Rodriguez and the woman, his passenger door
open. Vega backed away from them in his truck and left the parking lot. He heard
someone scream as he left.
While Rodriguez was in custody, detectives interviewed him through a Spanishlanguage interpreter. A video recording of the interview was played for the jury. In it,
Rodriguez admitted he had an encounter with K.D. on the night of August 11, 2013. In
his version of events, when he met her in the alley after leaving the bar, he asked her if
she wanted a ride. She told him to meet her further down the alley, and when he did, she
offered to have sex with him for money. He said he had $24 and she said she would take
it. When he began touching her, however, she became angry, said she did not want to
have sex “like this,” and slapped him. He became angry, pushed her down, took her
purse, and ran to his friend’s car. He said he was not sure why he took the purse. He said
he was drunk and did not have a very clear memory of the encounter, but he denied
putting his hand inside her pants, pulling her pants down, or knocking her head against
the wall. Rodriguez did not testify at trial.
A business near K.D.’s apartment building was equipped with surveillance
cameras, which made video recordings of the attack. The recordings were played for the
jury. They are not included in the appellate record.
Detective James Edlund interviewed K.D. twice. The first interview was on the
night of the attack, August 11, 2013, and the second was the day before trial, October 6,
2014. Defense counsel examined Edlund in an effort to bring out discrepancies between
K.D.’s statements in the first interview, the second interview, and her trial testimony.
K.D. told Edlund the men’s catcalling included “kissing sound[s],” but in her testimony
she said she did not recall saying this. She told Edlund that Rodriguez pulled her
underpants to the side but testified that he pulled them down. She testified that
Rodriguez said something in broken English about going to a house, but did not mention
6.

this in her first interview with Edlund. In the first interview with Edlund, K.D. said
Rodriguez placed his hand on her shoulder and then moved it to her waist. In the second,
she said he grabbed her shoulder. In the first interview, she said Rodriguez grabbed her
breast. She did not mention this in the second interview.
Edlund testified he did not remember K.D. saying during the second interview that
she felt Rodriguez’s finger and another object on her vagina or that she felt his fingers in
the place where she inserts a tampon, although her trial testimony included these
statements. Subsequently, however, the parties stipulated that K.D. did say these things
during the second interview.
Defense counsel also pointed out that Driscoll, the nurse, testified K.D. said
Rodriguez told her he was going to abduct her. K.D. did not tell Edlund this.
The jury returned the following verdict: On count 1, attempted kidnapping, not
guilty, but guilty of false imprisonment (§ 236), which the jury had been told was a
lesser-included offense. On count 2, assault with a deadly weapon, not guilty, but guilty
of simple assault (§ 240), also a lesser-included offense. On count 4, assault by means of
force likely to cause great bodily injury, guilty. On count 5, assault with intent to commit
a sexual offense, guilty. On this count, the jury found not true a sentence-enhancement
allegation that Rodriguez personally inflicted great bodily injury on K.D. (§ 12022.8.)
On count 6, sexual penetration with a finger by force, guilty. The jury also found not true
on this count allegations that Rodriguez personally inflicted great bodily injury on K.D.
(§§ 667.61, 12022.8.) On count 7, sexual penetration with an unidentified object by
means of force, not guilty. On count 8, guilty of robbery. The jury found true an
allegation that the robbery was from K.D.’s person. (§ 487.)
The court imposed the upper term of eight years on count 6, sexual penetration by
force, and the upper term of six years, consecutive, on count 5, assault with intent to
commit a sexual offense. On count 8, robbery, the court imposed a consecutive term of
one year, equal to one-third of the middle term. On count 1, false imprisonment, the
7.

court imposed a consecutive term of eight months, also equal to one-third of the middle
term. The sentence on count 4, assault by means of force likely to produce great bodily
injury, was stayed under section 654. The total prison term was 15 years 8 months.
DISCUSSION
I.

Uncharged false-imprisonment offense
Contrary to the language on the verdict form, false imprisonment is not a lesser

offense included in attempted kidnapping. A perpetrator can be guilty of attempted
kidnapping even though no false imprisonment took place because the perpetrator failed
in his attempt to restrain the victim’s movement. Rodriguez argues that, for this reason,
the jury could not properly find him guilty of false imprisonment, since only attempted
kidnapping was charged in the information. Rodriguez is mistaken. As we will explain,
his failure to object to the jury instructions on false imprisonment amounted to his
implied consent to submit that charge to the jury, and consequently that conviction was
appropriate even though it was not charged and was not a lesser offense included in a
charged offense.
Ordinarily, due process principles would be offended if a defendant were
convicted of an offense that is neither charged in the accusatory pleading nor necessarily
included in a charged offense. (People v. Lohbauer (1981) 29 Cal.3d 364, 368-369;
People v. West (1970) 3 Cal.3d 595, 612.) There is an exception to this rule when a
defendant consents to the jury being instructed on an uncharged offense. (People v.
Ramirez (1987) 189 Cal.App.3d 603, 622; People v. Geiger (1984) 35 Cal.3d 510, 526
(Geiger), overruled on other grounds by People v. Birks (1998) 19 Cal.4th 108, 136
(Birks).) A defendant can be deemed to have given consent when the court proposes to
instruct the jury on an uncharged offense and the defendant makes no objection. (People
v. Toro (1989) 47 Cal.3d 966, 978 (Toro), overruled on other grounds by People v.
Guiuan (1998) 18 Cal.4th 558, 568, fn. 3; People v. Mata (2013) 57 Cal.4th 178, 186
(Mata).)
8.

That is precisely what happened in this case. After the parties concluded their
presentation of evidence, the court and parties discussed jury instructions on the record.
At the end of this discussion, the court asked defense counsel, “[A]re the instructions as
in your possession at the current moment acceptable to you?” Defense counsel said yes.
The packet of instructions included an instruction on false imprisonment in accordance
with CALCRIM No. 1240. When the court read this instruction to the jury, defense
counsel did not object. Given ample opportunity to object to the submission of the
offense of false imprisonment to the jury, the defense elected not to do so and thus
impliedly consented.
Rodriguez suggests a somewhat convoluted reason why we should not hold he
impliedly consented to the instruction even though he did not object. He maintains the
holding of Toro, supra, 47 Cal.3d at page 978—that a lack of objection can be construed
as an implied consent in this situation—has been effectively overruled. This argument is
based on the facts that Birks, supra, 19 Cal.4th at page 136, overruled one of the holdings
in Geiger, supra, 35 Cal.3d 510, and Toro cited Geiger.
The argument fails because the proposition in Geiger overruled by Birks had
nothing to do with implied consent via failure to object. Instead, it was about a
defendant’s right to insist on a jury instruction on a lesser, nonincluded offense. (Birks,
supra, 19 Cal.4th at p. 136 [defendant has no such right].) Rodriguez says Toro “based
its conclusion that the defendant impliedly consented to the charge in part on the absolute
right of a defendant to demand lesser related offense instructions,” but this is not correct.
Toro based its conclusion in part on the view that instructions on such charges can be
beneficial to a defendant, who consequently might wish to accept them without objection
when proposed by the prosecution. (Toro, supra, 47 Cal.3d at pp. 974-975.) The Geiger
court thought this view helped to show that a defendant should have the right to demand
such instructions. (Geiger, supra, 35 Cal.3d at p. 529.) That there turns out to be no such

9.

right does not mean the instructions cannot be beneficial to a defendant or that this
benefit fails to support the rule on implied consent.
If there were any doubt that Toro remains good law on the point at issue, it would
be dispelled by Mata, supra, 57 Cal.4th at page 186. There our Supreme Court stated:
“‘Assent’ … encompasses positive agreement as well as passive concession. Our
discussion of implied consent in [Toro] also supports this conclusion. In Toro, we held
that consent to instructions on an uncharged lesser related offense could be inferred from
defense counsel’s failure to object, and that such failure to object ‘bar[s] a contention
based on lack of notice.’ [Citations.]” (Ibid.) This is a post-Birks reaffirmation of
Toro’s holding on implied consent.
Rodriguez next contends Toro is distinguishable. He says that in Toro the court
was motivated in part by indications in the record that Toro effectively conceded he was
guilty of some offense. Toro’s counsel conceded during closing argument that Toro
stabbed the victim. (Toro, supra, 47 Cal.3d at p. 977.) Rodriguez argues that he, by
contrast, never admitted he did anything to restrain K.D.’s liberty. In his police
interview, he only said he agreed to pay her for sex and then stole her purse. We do not
read Toro, however, as holding that implied consent arises only when a defendant admits
he is guilty of some offense related to a charged offense. Declining to object to an
instruction on a lesser, nonincluded offense can be a wise backup strategy even when a
defendant’s primary goal is acquittal of all charges. Defense counsel could reasonably
have found it wise in this case. Rodriguez admitted to police he was the person who
committed a crime against K.D. in the alley that night, and the jury saw surveillance
video of what he did. If the video showed him restraining or trying to restrain her, giving
the jury a third option between finding him guilty of attempted kidnapping and finding
him guilty of no offense involving restraint was a sound plan. The implied consent rule
is applicable.

10.

II.

Jury instructions
A.

Circumstantial evidence

Rodriguez argues the court erred because it did not, on its own motion, instruct the
jury with CALCRIM No. 224, which states:
“Before you may rely on circumstantial evidence to conclude that a fact
necessary to find the defendant guilty has been proved, you must be
convinced that the People have proved each fact essential to that conclusion
beyond a reasonable doubt.
“Also, before you may rely on circumstantial evidence to find the defendant
guilty, you must be convinced that the only reasonable conclusion
supported by the circumstantial evidence is that the defendant is guilty. If
you can draw two or more reasonable conclusions from the circumstantial
evidence, and one of those reasonable conclusions points to innocence and
another to guilt, you must accept the one that points to innocence.
However, when considering circumstantial evidence, you must accept only
reasonable conclusions and reject any that are unreasonable.”
As we will explain, giving this instruction would have been inappropriate under
the circumstances. There was no error.
The principles relevant to this instruction are not in dispute and are concisely
stated in the bench notes to the instruction. The trial court has a sua sponte duty to give
the instruction “if the prosecution substantially relies on circumstantial evidence to
establish any element of the case.” (Bench Notes, CALCRIM No. 224 (2016 ed.), p. 63.)
But there is no such duty “when the circumstantial evidence is incidental to and
corroborative of direct evidence.” (Ibid.) In fact, this type of instruction can be
confusing and ought not to be given if circumstantial evidence is “not the primary means
by which the prosecution seeks to establish that the defendant engaged in criminal
conduct .…” (People v. Anderson (2001) 25 Cal.4th 543, 582 (Anderson) [discussing
similar CALJIC instruction].)
Rodriguez’s contention is that the medical testimony about K.D.’s injuries was
circumstantial evidence that she was sexually assaulted. He says this evidence was

11.

equally consistent with two conclusions: that Rodriguez assaulted K.D. and inflicted the
injuries with his fingers (as the jury found), or that K.D. sustained the injuries in some
other way, such as through rough consensual sex with her boyfriend or a traumatic
impact of some kind. Rodriguez further argues that, although K.D.’s testimony was
direct evidence she sustained the injuries via Rodriguez’s assault, the medical testimony
was “more than just corroborative” of K.D.’s testimony. In Rodriguez’s view, it was
prejudicially erroneous not to give CALCRIM No. 224 under these circumstances.
The medical testimony was merely corroborative of K.D.’s testimony, however,
for K.D.’s testimony was the “primary means by which the prosecution [sought] to
establish” Rodriguez’s guilt of a sexual offense. (Anderson, supra, 25 Cal.4th at p. 582.)
“[B]y introducing circumstantial evidence merely to corroborate an eyewitness, the
prosecution did not substantially rely on such evidence,” and the court’s omission of the
instruction was correct, just as in Anderson. (Ibid.)
Rodriguez’s own argument tends to show not only that the court was not required
to give the instruction, but that giving it would have been error. He says, “Without
CALCRIM [No.] 224, the jury could not have known that the circumstantial evidence
had to be not only consistent with guilt, but also irreconcilable with any other rational
conclusion .…” But CALCRIM No. 224 obviously is not intended to require acquittal
whenever circumstantial evidence is consistent with innocence, even though there is
primary direct evidence that suffices to prove guilt.
B.

Rodriguez not testifying

Rodriguez next contends his trial counsel rendered ineffective assistance by not
requesting an instruction in accordance with CALCRIM No. 355, which states:
“A defendant has an absolute constitutional right not to testify. He or she
may rely on the state of the evidence and argue that the People have failed
to prove the charges beyond a reasonable doubt. Do not consider, for any
reason at all, the fact that the defendant did not testify. Do not discuss that
fact during your deliberations or let it influence your decision in any way.”

12.

The trial court has no duty to give this type of instruction on its own motion.
(People v. Lewis (1990) 50 Cal.3d 262, 282.) Rodriguez did not request it.
To establish ineffective assistance of counsel, a defendant must show that
counsel’s performance “fell below an objective standard of reasonableness,” and that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” (Strickland v. Washington (1984) 466
U.S. 668, 688, 694; see also People v. Hester (2000) 22 Cal.4th 290, 296.) When
determining whether counsel’s performance was professionally unreasonable, we must
consider whether the appellate record affirmatively shows this or whether, by contrast, it
is possible that considerations not appearing in the record could have justified counsel’s
conduct. If the situation is simply that nothing could justify the attorney’s action, then
we can find ineffective assistance on direct appeal; but if counsel could have had a
tactical reason for acting as he or she did, and this reason does not appear in the record,
then the matter should be addressed instead in habeas proceedings, where a record of
counsel’s reasons can be developed. (People v. Pope (1979) 23 Cal.3d 412, 425-426,
overruled on other grounds in People v. Berryman (1993) 6 Cal.4th 1048, 1081, fn. 10; In
re Dennis H. (2001) 88 Cal.App.4th 94, 98 & fn. 1; People v Plager (1987) 196
Cal.App.3d 1537, 1543.)
In this case, it is possible defense counsel could reasonably have believed
CALCRIM No. 355 would have been harmful to Rodriguez’s interests. As Rodriguez is
aware, our Supreme Court has stated that an instruction on a defendant’s refraining from
testifying can be undesirable from the defense perspective because it can direct the jury’s
“attention to the fact that the defendant is not testifying at the same time that it cautions
the jury not to draw any adverse inferences from such failure to testify.” (People v.
Stanley (2006) 39 Cal.4th 913, 966.) Defense counsel might reasonably choose not to
highlight a defendant’s silence.

13.

Nothing in the record in this case is inconsistent with the conclusion that counsel
made that choice at trial. Rodriguez now says the jury could have wondered why he
made a statement to the police but was silent at trial, and the instruction could have
deterred any adverse speculations they might have made about this. It is just as likely,
however, that the video recording of Rodriguez’s statement to the police satisfied the
jurors’ desire to hear him giving his side of the story, and that CALCRIM No. 355 would
only have stoked suspicions about his in-court silence that would not otherwise have
occurred to them. Since the record does not reveal counsel’s reasoning on the matter, it
would not be appropriate on direct appeal to find ineffective assistance based on the
omission of a request for the instruction.
III.

Section 654
A.

Assault with intent to commit a sexual offense

Rodriguez maintains the court should have applied section 654 to stay punishment
on count 5, assault with intent to commit a sexual offense, because it was committed as
part of the same course of conduct and with the same criminal objective as count 6,
sexual penetration by force. The People concede the two offenses were part of the same
course of conduct and were committed pursuant to the same objective, but argue that a
statutory exception to section 654 justified the imposition of multiple punishments. We
agree with the People.
Section 654 provides, in part, as follows:
“An act or omission that is punishable in different ways by different
provisions of law shall be punished under the provision that provides for
the longest potential term of imprisonment, but in no case shall the act or
omission be punished under more than one provision.”
This statute bars multiple punishment not only for a single criminal act but for a single
indivisible course of conduct in which the defendant had only one criminal intent or
objective. (People v. Bauer (1969) 1 Cal.3d 368, 376; In re Ward (1966) 64 Cal.2d 672,
675-676.)
14.

Section 667.6, however, on which the trial court expressly relied, operates as an
exception to section 654. (People v. Hicks (1993) 6 Cal.4th 784, 796-797 (Hicks).)
Subdivision (c) of section 667.6 provides in part:
“In lieu of the term provided in Section 1170.1,[4] a full, separate, and
consecutive term may be imposed for each violation of an offense specified
in subdivision (e) if the crimes involve the same victim on the same
occasion. A term may be imposed consecutively pursuant to this
subdivision if a person is convicted of at least one offense specified in
subdivision (e). If the term is imposed consecutively pursuant to this
subdivision, it shall be served consecutively to any other term of
imprisonment, and shall commence from the time the person otherwise
would have been released from imprisonment.”
Count 6, sexual penetration by force, is one of the offenses listed in section 667.6,
subdivision (e). The trial court therefore was authorized to impose a sentence for count 6
consecutive to the sentence for count 5 (and the other counts) despite section 654.
Rodriguez avers that section 667.6 no longer operates as an exception to
section 654 because of an amendment to section 667.6 in 2006. In 1993, when Hicks,
supra, 6 Cal.4th 784, held that section 667.6 created an exception to section 654,
section 667.6, subdivision (c), included the following language: “‘In lieu of the term
provided by section 1170.1, a full, separate, and consecutive term may be imposed for
each violation of [specified sexual offenses] … whether or not the crimes were
committed during a single transaction.’” (Hicks, supra, at p. 790, italics added.) In
2006, Proposition 83 amended the statute. (Prop. 83, § 11, as approved by voters, Gen.
Elec. (Nov. 7, 2006).) The changes included replacing the italicized language with the
following: “if the crimes involve the same victim on the same occasion.” (§ 667.6,
subd. (c).)

4Section

1170.1 includes provisions stating how consecutive terms ordinarily are
to be calculated.
15.

According to Rodriguez, this change is significant because Hicks relied on the
earlier language. The Hicks court explained that in one version of the bill that became
section 667.6, the passage here in question read “‘whether or not the crimes were
committed with a single intent or objective or during a single transaction.’” The phrase
“with a single intent or objective or” was deleted from the bill as enacted. (Hicks, supra,
6 Cal.4th at p. 792.) After reviewing the legislative history, the court concluded:
“Although it is unclear why the Legislature removed the reference to ‘a single intent or
objective’ from section 667.6(c), the only reasonable explanation for its retention of the
phrase ‘whether or not the crimes were committed during a single transaction’ is that the
Legislature intended to create an exception to section 654 that would allow multiple
punishment for separate criminal acts committed during an indivisible course of
conduct.” (Id. at p. 793.) Rodriguez says this reasoning means the change effected by
Proposition 83—from “whether or not the crimes were committed during a single
transaction” to “if the crimes involve the same victim on the same occasion”—deprives
the statute of its effect of creating an exception to section 654.
The change does not have the significance Rodriguez attributes to it. The phrase
“if the crimes involve the same victim on the same occasion” in section 667.6,
subdivision (c), contrasts with “if the crimes involve separate victims or involve the same
victim on separate occasions” in section 667.6, subdivision (d). Subdivision (c) allows
consecutive sentences in the situation described there (a consecutive term “may be
imposed”), while subdivision (d) mandates consecutive sentences (a consecutive term
“shall be imposed”) (italics added). In allowing multiple punishments in one class of
cases and requiring them in another, the voters can hardly be deemed to have intended to
abolish them in the former class by reimposing section 654’s restrictions.
Rodriguez’s point could be that an “occasion” is possibly a longer, more
encompassing occurrence than a “transaction,” and that the voters meant to say that,
while consecutive sentences might be called for when a defendant is guilty of enumerated
16.

crimes taking place during multiple transactions during a single occasion, section 654
should still be applied to bar multiple punishments if multiple enumerated crimes are
committed within a single indivisible transaction. Rodriguez has pointed us to nothing
that would indicate the voters had this rather unlikely intent, however.
B.

False imprisonment

Rodriguez argues the court should have applied section 654 to stay the punishment
for false imprisonment in count 1 because it was part of the same course of conduct and
pursuant to the same objective as the assault and penetration in counts 5 and 6. We
review under the substantial evidence standard the court’s factual finding, implicit or
explicit, of whether or not there was a single criminal act or a course of conduct with a
single criminal objective for purposes of section 654. (People v. Coleman (1989) 48
Cal.3d 112, 162; People v. Ratcliff (1990) 223 Cal.App.3d 1401, 1408.)
Felony false imprisonment requires the perpetrator to restrain the victim’s freedom
of movement by “violence, menace, fraud, or deceit.” (§ 237.) Fraud and deceit are not
at issue here. Rodriguez claims the only time the evidence showed he used violence or
menace was when he began striking her, and his acts of striking her were part of the same
course of conduct, and had the same objective, as his sexual assault and forcible
penetration.
The record does not support his contention. K.D.’s testimony supported the
conclusion that Rodriguez restricted her freedom of movement almost from the very
beginning of the encounter. After the catcalling, Rodriguez walked up to K.D. and pulled
her to him with his arm while his associate followed them up the alley in a car with the
door open. Rodriguez’s arm interfered with K.D.’s movement while the car limited her
path of retreat. Few people isolated in an alley would not feel menaced by behavior like
Rodriguez’s up to that point. The jury was instructed, in accordance with CALCRIM
No. 1240, that “[m]enace means a verbal or physical threat of harm. Threat of harm may
be express or implied.” Rodriguez does not claim this is an incorrect statement of the
17.

law. The court could reasonably find Rodriguez’s acts at the beginning of the encounter
were an implied threat of harm.
Further, the court could reasonably find that, at this early point, Rodriguez had an
objective separate from the objective of sexually assaulting and forcibly penetrating K.D.
In his statement to the police, Rodriguez said that, at the beginning of the encounter, he
thought K.D. was a prostitute and his intent was to pay her for consensual sex. The court
could reasonably find, based on this evidence, that Rodriguez’s initial objective when
falsely imprisoning K.D. was to corner her for the purpose of proposing and
consummating this transaction. It could further find that his intent to force himself on her
developed later, when she turned out not to be a prostitute. Thus, the court could
reasonably find Rodriguez falsely imprisoned K.D. at the beginning of the encounter with
one objective, and assaulted her later with another, distinct objective.
Rodriguez cites People v. Matian (1995) 35 Cal.App.4th 480 for the proposition
that felony false imprisonment by menace can be established only by evidence that the
defendant used a deadly weapon or verbally threatened harm, and therefore his conduct at
the beginning of the encounter could not be a basis for a separate punishment for false
imprisonment because he had not yet committed false imprisonment at that time. We do
not read Matian as supporting this view. The court in that case merely observed that
published cases of felony false imprisonment “generally” involved a deadly weapon or an
express threat and that the only evidence of menace in the case before it, which it found
insufficient, was the facts that the defendant had committed sexual assaults against the
victim a short time before and then glared at her and got up from his chair when she tried
to leave. (Id. at pp. 485-487.) This is not a holding that there is no such thing as menace
consisting of a threat of harm implied by a course of behavior. We think any woman
approached by a stranger in an alley in the manner in which Rodriguez approached K.D.
would rightly consider herself threatened by a quite specific and severe type of harm, the
type that in fact ensued in this case.
18.

DISPOSITION
The judgment is affirmed.
_____________________
Smith, J.
WE CONCUR:

_____________________
Detjen, Acting P.J.

_____________________
Peña, J.

19.

